Audit Report




OIG-11-047
SAFETY AND SOUNDNESS: Failed Bank Review of BC National
Banks
December 8, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           December 8, 2010


            OIG-11-047

            MEMORANDUM FOR JOHN G. WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Michael J. Maloney /s/
                                  Director, Fiscal Service Audits

            SUBJECT:              Failed Bank Review of BC National Banks


            This memorandum presents the results of our review of the failure of BC
            National Banks (BC National), of Butler, Missouri. BC National was established in
            1902 as Bank of Amoret. BC National converted from a state nonmember
            institution to a national charter in October 1981, and changed its name to Bates
            County National Bank. In 1995, the bank changed its name to BC National
            Banks. BC National had 4 locations in Missouri: 2 in Butler, 1 in Peculiar, and 1
            in Lee’s Summit. BC National was 99 percent owned by Amoret Bancshares,
            Inc., a one-bank holding company. The Office of the Comptroller of the
            Currency (OCC) closed BC National and appointed the Federal Deposit Insurance
            Corporation (FDIC) as receiver on April 30, 2010. As of December 31, 2009,
            the bank had $67.2 million in total assets. FDIC estimated that the loss to the
            Deposit Insurance Fund is $11.4 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a
            review of the failure of BC National that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2)
            determining whether any unusual circumstances exist that might warrant a more
            in-depth review of the loss. In performing our review we (1) examined
            documentation related to the appointment of FDIC as receiver, (2) reviewed
            OCC reports of examination for the 5-year period before the bank failure, and
            (3) interviewed OCC examination personnel.

            We conducted this performance audit during September and October 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence
OIG-11-047
Page 2

obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.


Causes of BC National’s Failure
OCC appointed FDIC as receiver based on grounds that included: (1) the bank had
experienced substantial dissipation of assets or earnings due to any unsafe or
unsound practice; (2) the bank was in an unsafe or unsound condition to transact
business; and (3) the bank had incurred or was likely to incur losses that would
deplete all or substantially all of its capital, and there was no reasonable prospect
for BC National to become adequately capitalized without federal assistance.

The primary causes of BC National’s failure were its (1) strategic decision to
change its focus from agricultural lending to commercial real estate (CRE) lending
through branch expansion into new local markets in metropolitan Kansas City,
Missouri; (2) concentrations in higher-risk CRE loans; (3) ineffective board and
management oversight; and (4) ineffective lending policies and procedures and
underwriting guidelines. BC National’s aggressive growth began when the bank
expanded to new markets in Missouri between 1999 and 2001. During that time,
total assets increased from $61 million to $97 million with total loans increasing by
52 percent. Despite warning signs related to the slowing real estate market, and
without addressing its credit administration shortcomings, the board and
management continued to execute the bank’s lending strategy in the Kansas City
metropolitan area when it opened its Peculiar branch in 2008. That same year,
OCC stated in its report of examination that the board and management failed to
adopt or implement commensurate risk management processes. The president and
the board decided to pursue significant growth in a highly competitive CRE market
without employing prudent underwriting standards and credit risk management
processes, which ultimately resulted in the bank’s failure.

Conclusion
Based on our review of the causes of BC National’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there
were no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth
review of the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In
its response, OCC stated that it agrees with our conclusion about the primary
OIG-11-047
Page 3

causes of BC National’s failure. OCC also stated that it had no concerns with
our determination that a more in-depth review of the failure is not warranted.
The response is provided as Attachment 1. A list of the recipients of this
memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-6512 or
Susan Roy, Audit Manager, at (202) 927-5746.

Attachments
         OIG-11-047

       Attachment 1
Management Response
                                                   OIG-11-047

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
